Audit of USAID’s Human Capital Data
Audit Report Number 9-000-03-002-P

December 20, 2002




                    Washington, D.C.
December 20, 2002


MEMORANDUM
FOR:           M/HR/OD, Rose Marie Depp

FROM:          IG/A/PA, Dianne L. Rawl /s/

SUBJECT:       Audit of USAID’s Human Capital Data (Report No. 9-000-
               03-002-P)

This is our final report on the subject audit. In finalizing this report, we
considered management’s comments on our draft report. We have included
those comments, in their entirety, as Appendix II.

This report includes seven recommendations that are designed to improve
USAID’s human capital data. In your response to our draft report, you
concurred with recommendations 1 through 6 and their potential benefits. We
therefore, consider that a management decision has been reached on those six
recommendations. Please coordinate final action for each of the
recommendations where a management decision has been made with
USAID’s Office of Management Planning and Innovation. Based on your
response to our draft report, we do not consider Recommendation No. 7 to
have received a management decision. Consequently, we request that you
provide written notice within 30 days relating to actions taken, or planned
with accompanying target dates, to complete the corrective actions for
recommendation No. 7.

I want to express my sincere appreciation for the cooperation and courtesies
extended to my staff during the audit.




                                                                               1
Table of   Summary of Results                                               3
Contents
           Background                                                       4

           Audit Objectives                                                 5

           Audit Findings                                                   5

                  What human capital data are being collected by USAID?     5

                  Are the human capital data complete and accurate?         6

                         USAID Needs Complete, Consistent, and Accurate
                         Data on Its Non-Direct Hire Workforce              7

                         Corrections to the National Finance Center Data
                         Should be More Timely                              11

                         Workforce Data Submitted by Missions Needs
                         Verification                                       13

                         Workforce Data Problems Identified                 14

                  When analyzed, what do the human capital data indicate?   16

                         U.S. Direct Hire Data Show USAID’s Human
                         Capital Challenges                                 16

                         Non-U.S. Direct Hire Workforce Provides
                         Important Role                                     19

                         Progress Made Toward Assessing Workforce
                         But More Still Needed                              21

           Management Comments and Our Evaluation                           24

           Appendix I --Scope and Methodology                               26

           Appendix II --Management Comments                                29




                                                                                2
 Summary
The            of
    ability of USA   The ability of USAID to carry out its mission in the 21st century will depend,
 Results             in part, on successfully managing its human capital. At the end of fiscal year
                     2001, USAID’s workforce, in excess of 7,000 individuals, consisted of U.S. and
                     foreign national citizens working under a variety of arrangements. (As
                     discussed in the scope and methodology section, all workforce numbers in this
                     report exclude Office of Inspector General personnel.) During this time period,
                     USAID employed 1,951 U.S. citizens working as direct hires in
                     USAID/Washington and in overseas missions. In addition to the direct hires,
                     USAID’s workforce also consisted of non-direct hires. USAID reported that
                     there were more than 5,000 individuals in its non-direct hire workforce who
                     worked in USAID/Washington and abroad at the end of fiscal year 2001.
                     The bulk of these non-direct hires were foreign service nationals and third
                     country nationals who worked overseas as personal services contractors.

                     USAID’s workforce data was not up to date, consistent, totally accurate, or
                     complete because:

                     •   overseas missions did not all adhere to the quarterly reporting schedule
                         established by USAID’s Bureau for Management, Office of Human
                         Resources (M/HR), thereby precluding up-to-date reports (see page 8);

                     •   USAID/Washington and overseas missions submitted data with dissimilar
                         specificity, resulting in M/HR being provided inconsistent and incomplete
                         data to analyze (see page 8);

                     •   USAID bureaus and overseas missions did not adhere to M/HR
                         requirements to report data on USAID’s external workforce (institutional
                         and service contractors), thereby excluding significant numbers of non-
                         direct hire personnel from M/HR’s workforce analysis (see page 9);

                     •   M/HR staff responsible for correcting direct hire data in the direct hire
                         database were not making corrections in a timely manner as required (see
                         page 11);

                     •   USAID overseas missions did not review their data as required by M/HR,
                         before sending reports to USAID/Washington, thereby allowing errors to be
                         incorporated into M/HR’s reports (see page 13).

                     To help USAID improve the quality of its human capital data, we are
                     recommending that M/HR (1) develop a procedure to notify bureau and mission
                     management when workforce data is not being submitted in a timely manner
                     (see page 11), (2) issue guidance to the missions and bureaus explaining their


                                                                                                     3
             responsibilities for workforce reporting under the new workforce reporting
             system (see page 11), (3) develop definitions and requirements so that
             workforce data submitted by the missions and bureaus is reported on time and
             is accurate, complete, and consistent (see page 11), (4) provide additional
             training for staff members who are responsible for entering and correcting
             personnel data (see page 13), (5) develop procedures for missions to attest to
             the accuracy of their workforce data and remind the missions of the
             requirements for reclassifying position classifications and backstop codes (see
             page 14), (6) institute a process to collect data on the reasons for employee
             attrition (see page 19), and (7) develop workforce plans for USAID’s civil
             service and non-direct hire workforce (see page 23).

             Improved workforce data is important because USAID will need reliable
             workforce data in developing future workforce strategies. USAID’s direct hire
             workforce is aging, with high rates of retirement anticipated in the near future.
             Although USAID has developed a preliminary workforce plan, more work
             remains in order to meet the requirements established by the Office of
             Management and Budget. Further, although USAID has a recruitment plan to
             address anticipated Foreign Service retirements and resignations, a similar plan
             is not developed for the civil service nor for the non-U.S. direct hire workforce
             (see page 22).



Background   In December 2000, USAID’s Office of Inspector General (OIG) identified
             human capital management as a serious challenge to USAID's management.
             The OIG recognized that in order for USAID to successfully manage its
             programs, it must have the right people–with the right training and skills–in
             the right places at the right time. Shortly thereafter, the U.S. General
             Accounting Office (GAO) included strategic human capital management as a
             high-risk area for the federal government. GAO stated that after a decade of
             government downsizing and curtailed investments in human capital, the
             human capital strategies of federal agencies were not appropriately
             constituted to adequately meet the current and emerging needs of the federal
             government. In addition, GAO reported that USAID's ability to carry out its
             foreign assistance mission was directly affected by its human capital
             challenges.

             USAID’s human capital expertise is vested in a wide array of workers such
             as direct hires, personal services contractors, workers on loan from other
             governmental agencies or private organizations, institutional contractors, and
             fellows. This diverse workforce is critical to USAID’s achievements in a
             variety of developmental activities in areas such as agriculture, health, and
             democracy. Among its personnel-related responsibilities that help support
             human capital, the Bureau for Management, Office of Human Resources is
             responsible for maintaining and reporting workforce data as well as

                                                                                               4
                    workforce planning. Strategic workforce planning is a systematic approach
                    to (1) determining staffing needs, (2) analyzing the current workforce, and
                    (3) developing an action plan to address the gaps in staff numbers and
                    competencies.

                    Accurate and complete workforce data are important for USAID’s managers
                    in making decisions on how to best address the human capital challenges
                    facing USAID. In addition, the U.S. Office of Management and Budget is
                    requiring USAID and other federal agencies to develop human capital
                    strategies. These strategies are being measured through the Executive
                    Branch Management Scorecard which assesses an agency’s performance in
                    each of the five government-wide initiatives (including strategic management
                    of human capital) described in the President’s Management Reform Agenda.
                    Finally, today’s heightened awareness of the potential risks from terrorism to
                    U.S. government facilities and its workforce underscores the importance of
                    USAID having complete and accurate data on its Washington and overseas
                    workforces.



Audit Objectives The Performance Audit Division of OIG/Washington initiated this audit in
                    order to establish baseline data to support future audit work in the area of
                    human capital. This audit was designed to answer the following questions
                    relating to human capital data collected and analyzed by USAID’s Office of
                    Human Resources:

                    •   What human capital data are being collected by USAID?

                    •   Are the human capital data complete and accurate?

                    •   When analyzed, what do the human capital data indicate?

                    Appendix I describes the scope and methodology for this audit.



Audit Findings      What human capital data are being collected by USAID?

                    USAID captures a significant amount of human capital data on its U.S.
                    Foreign Service and civil service employees. This U.S. direct hire (USDH)
                    workforce numbered 1,951 at the end of fiscal year 2001. The Office of
                    Personnel Management (OPM) establishes the data requirements that federal
                    agencies need to report for their federal workforce. Some of the key data
                    required by OPM includes date of birth, organization, pay plan, grade, and
                    service computation date. USAID’s direct hire workforce data is provided

                                                                                                   5
online by the Bureau for Management, Office of Human Resources (M/HR) to
the U.S. Department of Agriculture’s National Finance Center (NFC). 1 This
data is subsequently provided to OPM.

M/HR also collects data on a quarterly basis from USAID’s overseas missions
and Washington bureaus on their non-direct hire workforces. According to
M/HR records, at the end of fiscal year 2001, the non-direct hire workforce was
composed of 5,528 individuals, the majority of whom were non-U.S. personal
services contractors working overseas.2 Missions are expected to submit
workforce data files via e-mail, using a reporting format created by M/HR that
is referred to as the Mission Staffing Pattern System (MSPS). These files
include data such as name, contract number (for personal services contractors),
organizational entity, grade, backstop code, and service computation date.
Washington bureaus provide M/HR with data on their non-direct workforces
through hard copy reports. Although missions provide data on individuals,
bureaus provide only summary data on workforce categories. According to
M/HR, bureaus were unwilling to collect and report data on individuals.

M/HR publishes USAID’s workforce data through its Quarterly USAID
Worldwide Staffing Pattern Report.3 According to M/HR, historical workforce
data reported in the Quarterly USAID Worldwide Staffing Pattern Report is
stored in electronic data files.

Are the Human Capital Data Complete and Accurate?

The human capital data collected and maintained by USAID was neither
complete nor totally accurate. This occurred because (1) some missions had not
submitted workforce data to M/HR on a quarterly basis as required, (2)
Washington bureaus did not submit data on individuals and their summary
reports lacked the specificity of data reported by most of the missions, (3)
M/HR had not collected data for USAID’s complete workforce; for example, it
did not collect data on individuals working for institutional contractors, (4)


1
  Since October 2000, the U.S. Department of Agriculture’s NFC has been responsible for
maintaining personnel and payroll data in an online database for USAID’s USDH workforce.
When USAID transferred its personnel and payroll processing functions to NFC, only
information for on-board USDHs was transferred from USAID’s databases to the NFC.
Following deployment of the NFC system, USAID archived its historical personnel data on
computer tapes that were later downloaded onto USAID’s local area network for future use,
if needed.
2
 There were 4,397 non-U.S. personal services contractors at the end of fiscal year 2001 (59
percent of the total workforce).
3
 M/HR also publishes a Quarterly Mission Staffing Pattern Report that disaggregates data
published in the Quarterly USAID Worldwide Staffing Pattern Report for those missions that
provided workforce data in an electronic format.

                                                                                              6
USAID was slow to correct data identified as erroneous by the NFC, and (5)
missions submitted unverified and erroneous data to M/HR.

In addition, tests of direct and non-direct hires personnel data elements
maintained by M/HR found that some data could not be traced or compared to
source documents. Generally, these problems were a result of non-compliance
with USAID’s directives and guidance as well as the guidance established by
NFC and OPM.

USAID Needs Complete, Consistent, and Accurate
Data on Its Non-Direct Hire Workforce

Good information is important because it is used for workforce planning and is
reported to other entities such as the Congress, Office of Management and
Budget (OMB), and the General Accounting Office (GAO). However, data
submitted to M/HR by the missions and bureaus on their non-direct hire
workforces were not complete, consistent, or accurate. M/HR received
incomplete data because some missions did not provide workforce data on time
and it could not be included in required reports. Data were also incomplete
because M/HR’s requirement for complete workforce reporting was never fully
implemented and data were not collected on individuals working for
institutional and service contractors and some fellows were excluded from
workforce totals. Data were inconsistent because M/HR did not obtain
comparable workforce data from missions and bureaus. In one case, inaccurate
workforce data provided by a mission was repeatedly reported by M/HR for
three quarters. These problems were caused, in part, by the guidance provided.
But missions and bureaus also did not comply with existing guidance. M/HR
did not take action to improve compliance because M/HR staff believed that
they had no formal mechanism to elevate their data concerns to the bureaus and
missions.

According to USAID’s Automated Directives System, section 101.3.1.4
(g)(2)(a), M/HR is responsible, among other things, for (1) managing and
maintaining the human resources database, (2) monitoring workforce data and
total USAID staff, and (3) providing periodic reports and projections on
USAID’s human resource configuration. M/HR has informed missions and
bureaus of specific workforce data quality requirements through a series of
MSPS Exonets and e-mail messages, which date back as far as March 24,
1995.4 This guidance advises missions and bureaus that they should check the
accuracy and completeness of their workforce data before sending it to M/HR.
E-mail guidance sent to MSPS users in June 1996 stated “it is very critical that
all required MSPS data fields be furnished and correct for each
employee/position. Data taken from the MSPS is being used in congressional
testimonies, inquiries from OMB, GAO, and others.”
4
    An Exonet is an electronic newsletter sent to USAID’s Executive Officers and their staff.

                                                                                                7
Below are examples of problems related to completeness, consistency, and
accuracy of workforce data.

•   Incomplete Data -- Several missions did not provide or were late providing
    workforce data to M/HR, even though USAID’s March 1995 e-mail
    guidance to system users required all missions to provide current workforce
    data for the Quarterly USAID Worldwide Staffing Pattern Report. During
    fiscal years 1995-2001, these year-end staffing pattern reports in 32
    instances did not include current workforce data for USAID’s missions.
    This occurred because the missions did not submit data or submitted data
    that were too late to be included for publication. When the data were not
    submitted or not submitted on time, M/HR used old, previously reported
    data for the delinquent mission. This resulted in M/HR reporting some
    outdated workforce data. For example, in the Quarterly USAID Worldwide
    Staffing Pattern Report, fourth quarter fiscal year 2000, M/HR reported
    workforce data for one mission that was 15 months old.

    M/HR stated that missions are occasionally unable to transmit their
    workforce data because of technical problems. However, there were also
    occasions when missions simply did not submit the data. M/HR
    identifies delinquent missions in each Quarterly USAID Worldwide
    Staffing Pattern Report. However, according to M/HR, there is not much
    it can do to ensure that workforce data is submitted on time because there
    are no procedures that allow M/HR to raise data concerns with non-
    M/HR officials.

    M/HR stated that a new reporting system would be available in December
    2002 for the missions to provide their workforce data. According to M/HR,
    it was aware of the data problems that existed under the current reporting
    system and was thus developing the new system to improve future data.
    M/HR believes that the new web-based system will decrease the time
    needed by mission staff to maintain the workforce data. In addition, M/HR
    believes that the new system will better serve the missions and be more
    accessible through the web-based approach.

•   Inconsistent and Incomplete Data — According to the MSPS User
    Reference Manual, missions are required to report workforce data through
    the MSPS for each individual in their workforce. However, M/HR stated
    that some missions were experiencing technical problems in providing data
    by individual and, thus, only reported summary data by workforce category.
    There has been an increase in the number of missions providing only
    summary information. As a result, M/HR lacks consistent workforce
    mission-level data. Bureaus, on the other hand, only provide non-direct hire
    workforce data only in summary form. According to M/HR, when the


                                                                              8
    Mission Staffing Pattern System was developed, it envisioned that
    Washington bureaus would provide non-direct hire workforce data by
    individuals in the same fashion as missions. However, bureaus did not
    favor more detailed reporting. Consequently, because it does not have data
    on individuals, M/HR lacks detailed and consistent information on the
    entire non-direct hire workforce and cannot attest to the accuracy and
    completeness of the summary data that it receives from the bureaus. A new
    policy will be implemented in late 2002 that will require the bureaus to
    begin providing workforce data for individuals as part of the new workforce
    reporting system.

•   Inconsistent Data — The Worldwide USAID Staffing Pattern Report for
    fiscal year end 2001 identified 114 “fellows” in USAID’s workforce;5 but
    the same report inconsistently identified 37 additional fellows (all from one
    university) as not being part of the workforce totals. According to M/HR,
    the reporting bureau requested that the 37 fellows not be included in the
    workforce totals because they were not sitting in USAID space. Although
    M/HR attempted to monitor the number of fellows in the workforce, not
    including some fellows in the workforce totals precluded accurate reporting
    for this segment of the workforce.

•   Inaccurate Data — Included in the fiscal year-end 2001 Quarterly USAID
    Worldwide Staffing Pattern Report, among the 290 members of one
    mission’s workforce, were 110 individuals labeled as “others.” These were
    the mission’s guard force. This was inconsistent with the reporting practice
    of other missions that did not report workforce data for their guard forces in
    a similar fashion. M/HR’s guidance for the Mission Staffing Pattern
    System does not address when the “other” category should be used,
    although M/HR officials stated that mission guard forces should not be
    reported as “other.” Subsequently, M/HR also found that the same mission
    had double counted 75 members of its workforce. M/HR provided us with
    adjusted workforce numbers to reflect the actual workforce for that time
    period. However, six months later, the Quarterly USAID Worldwide
    Staffing Pattern Report still included the mission’s inaccurate data. A
    notation in the report stated that this information continued to be used
    because the mission had not submitted current workforce data.

•   Incomplete Data — M/HR does not know the number of individuals who
    are performing services for USAID under institutional and service
    contracts, the “external workforce,” and information on this workforce is
    not reported in the Quarterly USAID Worldwide Staffing Pattern Report.
    Institutional contracts are designed to provide essential support for program
5
 Fellows are provided to USAID under institutional contracts, grants, or cooperative
agreements with institutions. They are given practical work experience in the areas of
economic and humanitarian assistance.

                                                                                         9
activities by providing individuals to help USAID in advisory and
assistance roles. Contractors may supply information resource management
assistance in Washington, implement programs overseas, or provide
housekeeping as well as transportation and related services. Institutional
contractor personnel can prepare project papers and internal reports, arrange
conferences, implement programs, and provide secretarial and other
administrative support. These personnel remain employed by their parent
organizations and may not be assigned work in the same manner as a
manager would be able to assign work to a direct hire employee.

Guidance issued by M/HR in June 1995 required that workforce reports
include the “external workforce” (i.e., institutional and service contract
personnel) data in summary form so that it could “accurately reflect the
workforce of USAID.” However, there has been widespread non-
compliance with this requirement. M/HR reported that 32 percent of
missions met the requirement in December 1995 and 41 percent met the
requirement in March 1996. M/HR stated that the number of missions
reporting this information had since been reduced to only a few missions.

M/HR said that the 1995 external workforce requirement was never fully
implemented because the external workforce was difficult to define and
collate. They also noted that USAID’s contractual obligations are with the
institution or company rather than with the individuals working for these
organizations. USAID recently determined that there were approximately
700 institutional contractor employees working for USAID in various
locations in the Washington, D.C. metro area. According to USAID, “using
an institutional contractor helps ensure that personnel with current and
appropriate skills are applied for the tasks at hand. It would not be possible
for the Agency to maintain an USDH staff with the necessary current skills
or to maintain those skills.”

In an effort to obtain accurate and complete information on the total
Washington workforce, which was requested by the Administrator, an
Executive Message, effective February 11, 2002, required that all new hires
for services to be performed predominately in the Washington, D.C. area be
approved by the Chief of Staff. The message covered full-time, part-time or
intermittent appointments or contracts with duration of one year or more.
The guidance specifically addressed all direct and non-direct hires, as well
as other individuals providing services to the Agency, such as employees of
institutional contractors. The guidance also requires notification of such
actions to M/HR.

In order to have better quality workforce data, M/HR will need to take a
more proactive position in ensuring that the data that it receives is complete,
consistent, and accurate. The new web-based workforce reporting system


                                                                             10
   that M/HR intends to use as a replacement for the MSPS provides an
   opportunity to ensure that both missions and bureaus are reporting
   comparable and high-quality data. Beyond introducing this new reporting
   system, M/HR must take steps to ensure that the data submitted through the
   system will not mirror previous longstanding problems. M/HR must also
   determine whether or not the external workforce should be included as part
   of USAID’s worldwide workforce. The following recommendations are
   intended to help improve workforce data.

       Recommendation No. 1: We recommend that the Director of the
       Office of Human Resources develop a procedure to notify bureau
       and mission management when workforce data is not being
       submitted in timely manner.

       Recommendation No. 2: We recommend that the Director of the
       Office of Human Resources issue comprehensive workforce
       reporting guidance to missions and bureaus clearly explaining their
       responsibilities for workforce reporting under the new workforce
       reporting system.

       Recommendation No. 3: We recommend that the Director of the
       Office of Human Resources develop definitions and requirements
       so that workforce data submitted by missions and bureaus is
       reported on time and is accurate, complete, and consistent.

Corrections to the National Finance Center
Data Should be More Timely

Although the OPM and NFC require agencies to maintain accurate workforce
data, M/HR staff members did not correct known errors in USAID’s workforce
data within required timeframes. Once NFC identifies and reports errors in an
agency’s workforce data, it expects agencies to correct the errors within the
same pay period. M/HR stated it did not meet NFC’s deadlines because (1) it
lacked a process to ensure that corrections were made, (2) its staff have other
priorities, and (3) it has systemic problems including training. As a result,
untimely data corrections affected the quality of data maintained on USAID’s
direct hire workforce.

M/HR staff is responsible for entering and correcting data related to personnel
actions for USDH staff into NFC’s database. As it processes personnel actions,
NFC tests the data to ensure that the entries are valid. When invalid entries are
identified, such as the use of an incorrect code, the data is rejected. USAID
receives a daily NFC report that identifies data errors that pertain to USAID’s
direct-hire workforce. According to NFC, the errors are not being corrected in
a timely manner.


                                                                              11
OPM’s guidelines for processing personnel data (The Guide to Central
Personnel Data File Reporting Requirements) requires federal agencies to
collect workforce information and edit it for validity, accuracy, and
completeness. The guidance also states that agencies need quality control
operations to detect and correct incorrect and incomplete data prior to sending
the data to OPM. NFC’s procedures state that agencies/bureaus should update
personnel data as soon as possible, which NFC officials say is within the pay
period when errors are detected and reported.

According to NFC officials, most of USAID’s data errors were related to
payroll actions, with a smaller number related to personnel actions. Most of
USAID’s errors were characterized as being relatively simple to correct. Some
of the errors occurred during the transition period when USAID’s data entry
staff members were learning the NFC system. However, according to NFC,
data errors have continued after the transition period.

A NFC Implementation Review Team, formed in February 2001 and consisting
of USAID staff and contractors, also noted problems with errors. This team
was responsible for performing a mid-term review to give USAID’s
management a more comprehensive view of the challenges, strategies and
performance targets for better integration and utilization of NFC systems,
products and services. The team’s report stated that USAID had experienced an
increased rate of errors for personnel and payroll transactions since converting
to NFC’s system in October 2000. It was noted that there were gaps and
redundancies in the processes and errors that affected both human resources and
payroll transactions. The team attributed this to processes, roles, and
responsibilities that were not aligned between USAID’s M/HR and payroll
sections. Further, it noted that “for the most part, the errors that are occurring
are not system faults, but could be traced to the lack of defined roles and
responsibilities, incomplete or informal processes and procedures, skills gaps in
staff, and a lack of training.” The report also noted that:

       System documentation and user manuals provided by the NFC are high
       level. The manuals are NFC-system specific, and cannot address
       Agency-specific policies, processes, and practices. NFC’s manuals do
       not take into account the specific or unique requirements of USAID, nor
       can they anticipate individual Agency differences in policy and
       practices. Training provided by NFC is designed to provide a working
       knowledge of the functionality of the automated system, not to teach the
       individuals the requirements of their job or the specifics of law,
       regulation or Agency policy. It is assumed that users of the system are
       knowledgeable of their job requirements and proficient in the
       performance of their duties.




                                                                               12
M/HR was aware that data corrections were not being made on a timely basis
and agreed that it did not have a process in place to ensure that, when NFC
identifies errors, M/HR staff members correct the errors. Second, M/HR staff
responsible for correcting errors had heavy workloads that included higher
priority duties.

On June 11, 2002, NFC was contacted for a status update and, although NFC
remains concerned about the lack of correcting data errors in a timely fashion,
USAID had made some improvement in correcting errors over the past 6
months.

Although several reasons have been provided which explain the lack of timely
corrections made to personnel data, we believe that the proper way to begin
addressing this problem is by providing training to M/HR staff members that is
geared toward preventing and correcting data errors. Therefore, we are
recommending the following action:

       Recommendation No. 4: We recommend that the Director of the
       Office of Human Resources provide training to all staff members
       who are responsible for entering (and correcting) personnel data in
       the National Finance Center database, which addresses issues or
       problems unique to USAID and is geared toward preventing and
       correcting data entry errors.

Workforce Data Submitted by
Missions Needs Verification

Contrary to M/HR guidance, missions are not submitting accurate workforce
data to M/HR and that is causing erroneous data to be reported in agency
reports. Although this has been a problem for several years, missions have not
been required to attest that their data has been reviewed and is accurate.
Erroneous data being provided by the missions makes it difficult for M/HR to
carry out workforce planning.

USAID’s problems with unverified mission data are longstanding. In
November 1996, M/HR, in a MSPS Exonet, addressed concern about finding
“old dates” in the missions’ workforce data that M/HR believed raised
questions about the validity, not just of the questionable dates, but of all the
data. In March 1997, M/HR notified the missions that old contract end dates
had been identified in their December 1996 data submissions. Three months
later, M/HR sent another notice to the missions requesting that data be checked
to ensure that it was accurate and consistent. The notice said problems were
found most often in the following data fields: (1) employee names, (2) funding
source codes, (3) hiring locations, (4) arrival/contract starting dates, and (5)
departure/contract end dates. A June 1997 MSPS Exonet notice stated that
there were approximately 300 erroneous “contract end dates” in the previous

                                                                              13
March data submissions. A review of seven Quarterly USAID Worldwide
Staffing Pattern Reports (end of year reports for fiscal years 1995 through
2001) also found that the number of personal services contractors with expired
or omitted dates ranged from 140 in fiscal year 1998 to 304 in fiscal year 2001.


According to a M/HR official, human capital data are reviewed when received
from the missions prior to including it in the Quarterly USAID Worldwide
Staffing Pattern Report. This review seeks to identify aberrations in the
reported data and, when aberrations are identified, missions are contacted for an
explanation. M/HR’s only quality control is its request that missions verify
their workforce data before sending reports to M/HR through the MSPS system.
Missions are not asked to certify the accuracy of their submissions.

Further problems were addressed in USAID’s fiscal year 2001 Foreign Service
Recruitment Plan. The “plan” expressed concerns about the missions’
misclassification of the generic general development officer position.
According to a M/HR official, missions are using the generic classification
(backstop code) in place of eight more specific occupational codes as a cloaking
device to get the people they want regardless of the duties of the position to be
filled. The “plan” stated that M/HR was aware that missions were changing the
classification of their position without requesting reclassification. According to
the “plan”, “such misclassifications directly affect the accuracy of our
recruitment forecasts” and compounds the difficulties of determining future
needs. An M/HR official said that proper position management requires that
missions keep position classifications up to date.

In order for M/HR to report accurate workforce data and to perform workforce
analysis and future planning it is important for the missions to submit accurate
information. This can be achieved by having the missions verify the accuracy
of their workforce data prior to its submission.

       Recommendation No. 5: We recommend that the Director of the
       Office of Human Resources develop procedures for the missions
       to attest to the accuracy of the workforce data they send to the
       Office of Human Resources and remind missions of the
       requirements for reclassifying position classifications and
       backstop codes.

Workforce Data Problems Identified

Although most data contained in databases for both U.S. direct and non-
direct hires could be validated by comparison with hard copy documents in
the individuals’ personnel files, statistically significant discrepancies were
found in a few data fields that are described below. Errors in other data


                                                                                 14
fields were statistically insignificant. Although we are discussing this issue
below, we are not making any recommendations relating to this specific issue
because recommendations made elsewhere in this report should help prevent
the recurrence of this problem.

An attempt was made to validate certain human capital data elements for
both Foreign Service and civil service employees by comparing data
maintained in M/HR databases with hard copies of the Notification of
Personnel Action form (SF-50) maintained in selected individuals’ personnel
files. SF-50s are the official source documents for personnel actions and
must be filed in each employee’s official personnel file. Tested elements
included: employee name, date of birth, organization, duty station, pay plan,
grade, position number, service computation date, Foreign Service entry date
(if applicable), and appointment type.

We selected a random sample of 174 direct hire employees identified by
M/HR as being on board on October 1, 2001.6 In 11 instances (a 13 percent
error rate) the entry date of a Foreign Service employee as reported in the
personnel database could not be verified or the date was incorrect. In five
cases, the date could not be verified because a SF-50 related to that personnel
action could not be located. In five other cases, no date was included in the
data field. In one case, the entry was incorrectly recorded. Errors for the
other direct hire data elements tested were not statistically significant (above
2 percent).

Workforce data was tested from a random selection of missions and field
offices that provided workforce data by individuals, as reported through the
MSPS. For the individuals selected, the data elements tested were start dates
for personal services contractors, pay grades, organization, and name. A
random sample of 196 non-direct hires working during the fourth quarter
2001 was selected. Two of the data elements tested, personal service
contractor start dates and pay grades had unacceptable error rates (above 2
percent). The highest error rate of 19 percent was for the personal services
contractor start date. Employee pay grades had a 3 percent error rate. In
both of these cases, data that had been reported to M/HR against hard copy
source documents could not be verified.

No recommendations relating to this specific issue are being made because
other recommendations in this report that relate to other issues will help
mitigate these problems. In addition, M/HR is in the process of developing a
new workforce reporting system, which could address some of the existing data
problems. According to an M/HR official, the new system will improve data
quality because unlike the current system, entered data will require adherence to
standardized coded entries. The new system will no longer require the
6
    The foreign service sample size was 84 of the total 174.

                                                                              15
personal-service start date as a data field. Instead, this field will be replaced by
the service computation date, which, according to an M/HR official, will reduce
the confusion that currently exists.

When analyzed, what do the human capital data indicate?

USAID’s human capital data show that the USDH workforce is aging and is
concentrated at higher grades due to limited hiring during the past decade.
Although USAID has a plan for recruiting Foreign Service officers, a civil
service recruiting plan will not be developed until fiscal year 2003. The data
also show that USAID’s non-USDHs remain the largest portion of USAID’s
total workforce. Nonetheless, a workforce plan for non-USDHs has not been
developed. M/HR is taking steps to try to accomplish human capital planning
strategies as required by OMB, but much work remains.

U.S. Direct Hire Data Show USAID’s
Human Capital Challenges

USAID’s workforce is growing older, shrinking due to attrition, and becoming
more heavily concentrated in the upper pay grades. As seen in the following
chart, the USDH workforce has been reduced by 29 percent from 2,764
employees in fiscal year 1995 to 1,950 in fiscal year 2001. These reductions
have taken place both in Washington and overseas and were largely due to
attrition, combined with very limited hiring, to implement mandated workforce
reductions. The following chart shows a (1) Foreign Service (FS) overseas workforce of 866 in 9/30/95, and 636 in
9/30/01, (2) FS Washington workforce of 471 in 9/30/95 and 356 in 9/30/01, and (3) a civil service Washington
workforce of 1,427 in 9/30/95 and 959 in 9/30/01

                                    USDH Workforce Fiscal Years 1995 and 2001

                3000




                2500
                           866


                2000
  USDH Totals




                           471                                    636                     Foreign Service/Overseas
                1500                                                                      Foreign Service/Washington
                                                                                          Civil Service/Washington

                                                                  356
                1000


                           1427

                500                                               959




                  0
                          9/30/95                                9/30/01
                                          Reporting Period




Source: M/HR unaudited data

                                                                                                                       16
The average age for the USDH workforce increased from 45 years old at the
end of fiscal year 1995 to an average of 48 years old at the end of fiscal year
2001. In addition to growing older, the average USDH employee now has
about 18 years of federal service. As shown in the following chart, by fiscal
year 2006, it is estimated that about one-quarter of USAID’s civil service
workforce will be eligible for retirement, while more than one-half of the
Foreign Service workforce will be eligible for retirement. These projections are
based on the profiles of USAID’s average retirees, which show that direct hires
do not typically retire upon reaching retirement eligibility. The following chart shows
USDH workforce eligible for voluntary retirement in 9/30/02 at 34% for the FS and at 14% for the CS. It also shows in
9/30/06 a FS and CS workforce eligible for voluntary retirement at 52% and 27 % respectively.

                                      USDH Eligible for Voluntary Retirement

                 60




                 50




                 40
    Percentage




                                                                                                    Foreign Service
                 30
                                                                                                    Civil Service




                 20




                 10




                  0
                           9-30-02                                      9-30-06
                                               Eligibility Date




Source: M/HR unaudited data

To obtain better data on the date employees plan to leave the agency, USAID
asked its direct hires and non-direct hires in 2001 “when are you planning on
retiring or leaving the agency?” The responses are provided in the following
table.7

    Planned time period to retire or leave agency                                               Percent
    Less than one year                                                                          5.90
    One to three years                                                                          14.78
    More than three years                                                                       40.60
    Unsure                                                                                      38.72
7
 The results of this survey indicate that “because the overall response rate was 40-50% of
employees, the results are not necessarily representative of all USAID employees. However,
they do accurately reflect the views of those who took the time to respond.”

                                                                                                                      17
USAID’s USDH workforce is becoming increasingly concentrated at the upper
pay grade levels. The trend toward higher grades has been particularly
pronounced within the civil service workforce, where the average GS grade
increased from GS 11.34 to above GS 12.30. The average grade for the Foreign
Service at the end of fiscal year 2001 fell below the GS 14 equivalent for the
first time in several years. According to an M/HR official, the decrease in the
Foreign Service average grade is attributable to the hiring of new Foreign
Service candidates through the New Entry Professionals (NEPs) program. This
official thought that the increase of the civil service average grades probably
reflected a loss of lower graded administrative staff. The following chart shows average CS
grades steadily increasing from 11.34 in 9/30/06 to 12.3 in 9/30/01. The FS average grades increased from 13.87 in
9/30/96 to a high of 14.14 in 9/30/98 with a steady decline to 13.89 in 9/30/01. All USDH average grades increased
steadily from 12.58 in 9/30/96 to 13.1 in 9/30/01.


                                                    USDH Average Grades

                    14.50




                    14.00




                    13.50
    Average Grade




                    13.00
                                                                                                    Foreign Service
                                                                                                    Civil Service
                                                                                                    All USDH
                    12.50




                    12.00




                    11.50




                    11.00
                            9-30-96   9-30-97   9-30-98          9-30-99   9-30-00   9-30-01
                                                          Date


Source: M/HR unaudited data

Because of the effects of attrition and limited hiring, USAID has resumed
hiring new employees. For example, it has started using the Presidential
Management Intern Program as a means to recruit future civil service managers,
and, since 1999, it has used the NEP program to bring on board 178 Foreign
Service career candidates.8

According to M/HR, the time required to bring a new civil service employee on
board is three to six months and about one year to recruit and bring on board a
Foreign Service career candidate. M/HR is hoping to significantly reduce the

8
    This figure was current as of March 27, 2002. Twelve NEPs have resigned.


                                                                                                                      18
time for recruiting direct hires through use of an on-line automated recruiting
tool that it recently acquired.

With the exception of efforts to determine why NEPs resign from USAID,
M/HR has made no effort to collect data to determine the reasons for the non-
retirement-related attrition of other employees. Such data has not been
collected because USAID had been in a downsizing mode in recent years. Now
that USAID is once again hiring, and competing with other federal agencies and
the private sector, having information on attrition would be useful information
for human capital planning purposes. The new on-line recruiting tool has an
exit survey module that M/HR has discussed using.

       Recommendation No. 6: We recommend that the Director of the
       Office of Human Resources institute a process to collect data on
       the reasons for employee attrition.

Non-U.S. Direct Hire Workforce
Provides Important Role

Non-USDHs comprise the largest portion of USAID’s workforce and provide
valuable technical and administrative support both in Washington and overseas.
Two factors contributed to the growth of the non-USDH workforce. First,
USAID needed a source for additional specialized services as its workload
increased and the political and regulatory environment it was operating in
became more complex. Second, USAID experienced sharp reductions in
operating expense funding that caused decreases in authorized employee
ceilings leading USAID to seek services from the private sector. In this
effort, USAID has used large numbers of foreign nationals and U.S. citizens
working under personal services contracts. These individuals, called
personal service contractors (PSCs) fall into two major groups: (1) foreign
citizens of countries where USAID has missions (foreign service nationals,
or FSNs) and expatriate foreign nationals who work in a country other than
the U.S. or the individual’s country of origin (third country nationals, or
TCNs) and (2) U.S. citizens, hereafter referred to as USPSCs. The largest
workforce category consists of FSN and TCN PSCs. This group represents
59 percent of the total USAID workforce at the end of fiscal year 2001.
Missions and the bureaus manage this workforce category. FSN and TCN
PSCs are assuming more responsible roles for the development and
management of USAID’s programs and often function as full team members
alongside USDHs.

USPSCs often have unique job skills that are much needed for the success of
specific program activities. USAID believes that USPSCs provide the
necessary skills that can best be acquired on a temporary basis. At the end of



                                                                                  19
fiscal year 2001, USPSCs represented 8 percent of the workforce. Three-
fourths of USPSCs under contract at that date worked overseas.

The workforce category of FSN/TCN direct hires are non-U.S. citizens. It is
USAID’s policy that these positions will be eliminated over time. These
positions will be converted to PSC positions as the FSN direct hires separate
from USAID. At fiscal year-end 2001, this group represented 3 percent of the
total workforce and all worked overseas.

The remaining non-USDH workforce is described below. Each of these
workforce categories represents 2 percent or less of the total workforce as
reported by M/HR.

•    Fellows--Fellowship programs are intended to provide individuals with
     practical work experience in the areas of economic and humanitarian
     assistance in order to foster a pool of experts devoted to international
     development assistance. Fellows are provided under contracts, grants, or
     cooperative agreements with institutions.

•    Intergovernmental Personnel Act Employees (IPA)--Individuals working
     under an IPA agreement may be assigned to USAID under an
     appointment or by detail. They come from state and local governments,
     universities, and private voluntary organizations.

•    Participating Agency Service Agreements (PASAs)--Individuals working
     under PASAs are the result of agreements between U.S. government
     agencies that allow for the detailing of personnel. PASAs detailed to
     USAID are generally assigned overseas.

•    Resource Support Service Agreements (RSSAs)--RSSAs are identical in
     nature to PASAs, but their services are not project-specific and usually
     involve support services to USAID. RSSAs are normally assigned to
     offices in Washington, D.C.

•    Technical Advisors In AIDS, Child Survival, and Population (TAACS)--
     These technical specialists perform program activities that can include
     inherently governmental functions—which are normally reserved for
     direct hires. The services of these individuals may be acquired from
     other agencies, local governments, universities, and private voluntary
     organizations.
The following chart compares the size of USAID’s workforce by major categories for fiscal years ending 1995 and
2001. In fiscal year end 1995 the workforce category sizes were: Civil Service 1,427, Foreign Service 1,337,
FSN/TNC/PSC 4,674, USPSC 591, FSN/TCN/DH 537, RSSA 111, Fellows 106, PASA 44, TAACS 25, Other 19,
and IPA 6. At fiscal year end 2001 the workforce category sizes were: Civil Service 959, Foreign Service 992,
FSN/TNC/PSC 4,397, USPSC 631, FSN/TCN/DH 188, RSSA 117, Fellows 114, PASA 24, TAACS 50, Other 3,




                                                                                                            20
and IPA 4.

                                                              Workforce Comparisons Fiscal Years 1995 and 2001

                      5000


                      4500


                      4000


                      3500




  Workforce Numbers
                      3000

                                                                                                                                      1995
                      2500
                                                                                                                                      2001

                      2000


                      1500


                      1000


                       500


                         0
                                                          e
                                  e




                                                                                         A




                                                                                                     s




                                                                                                                                  A
                                                                                                           SA




                                                                                                                           er
                                                                  SC




                                                                                H




                                                                                                                    S
                                                      SC




                                                                                                    w
                                                       ic
                                ic




                                                                                       SS




                                                                                                                                IP
                                                                                                                  AC
                                                                              /D




                                                                                                                         th
                                                                                                 llo
                                                    rv
                              rv




                                                                                                         PA
                                                                SP
                                                   /P




                                                                                                                        O
                                                                             N




                                                                                      R




                                                                                                                TA
                            Se




                                           Se




                                                                                               Fe
                                                  N




                                                                            C
                                                               U
                                                 C




                                                                          /T
                         il




                                       n



                                               /T
                       iv




                                                                         N
                                      ig



                                              N
                      C




                                                                       FS
                                      re



                                            FS
                                 Fo




                                                                                    Workforce Category


Source: M/HR unaudited data

Not included in the above chart of USAID’s official workforce are the
unknown numbers of individuals working for institutional and service
contractors who were helping support USAID’s goals during fiscal years 1995
and 2001. As stated earlier, M/HR has recently identified 700 individuals who
were working for institutional contractors in support of USAID activities in
Washington, D.C. This number does not include the unknown number of
institutional and service contractors working overseas.

Progress Made Toward Assessing
Workforce But More Still Needed

USAID’s ability to carry out its mission in the 21st century will depend, in part,
on successfully managing its human capital. According to the General
Accounting Office, “high-performing organizations identify their current and
future human capital needs—including the appropriate number of employees,
the key competencies for mission accomplishment, and the appropriate
deployment across the organization—and then create strategies for
identifying and filling the gaps.” Although USAID has made a good effort to
establish a workforce plan as required by OMB, much work remains before
the complete workforce is incorporated into workforce planning.

Annually, USAID prepares a Foreign Service recruitment plan that is used to
determine the needs for Foreign Service officers for specific occupation
groups, projected over a five-year period. When workforce needs are
identified, a strategy is developed. An annual recruitment plan analysis uses

                                                                                                                                             21
mission resource requirements data as well as known and potential attrition to
determine the number of Foreign Service workers needed in each specific
occupation. As part of the Foreign Service recruiting plan, USAID plans to
recruit 80 to 85 entry-level candidates annually through fiscal year 2005 in an
effort to offset the Foreign Service attrition rate.

USAID has not developed a civil service recruiting plan and is not planning to
do so until the restructuring of USAID/Washington is completed. According
to M/HR, each bureau will identify its optimum personnel structures.
Occupational and skill requirements will then be developed. M/HR is planning
to assist the bureaus in assessing potential staffing losses and developing a
recruitment plan to address their needs. M/HR believes that with this
information it will be able to develop a civil service recruiting plan in fiscal
year 2003. M/HR stated that USAID is facing civil service skill shortages in
information technology, financial management, and procurement.

The non-USDH workforce has not been included in any workforce plan.
Missions and bureaus decide the size of the non-USDH workforce overseas.
USAID’s ability to successfully achieve its organizational goals will be closely
associated with its ability to develop and implement an effective workforce plan
for its total workforce. However, this task will not be easy and will require
more transparency and coordination than currently exists. Consistent
workforce data will be needed across the bureaus and missions as well as
improved and more complete workforce data. For instance, basic data such
as supervisor-to-employee ratios are not readily available for the complete
workforce. USAID reported that on September 30, 2000, in Washington,
D.C., there was a USDH supervisor-to-employee ratio of 1 to 4. However,
this did not take into account non-USDH hires. Further, data are not
currently available which allows for the assessment of the ratio overseas.
According to an M/HR official, the new workforce reporting system that is
being developed will require missions to report supervisor data. In this case,
supervisors are being defined as individuals who have the ability to hire,
discipline, and fire staff.

According to OMB, USAID’s workforce analysis, reported in June 2001,
showed high-level attention to workforce planning. OMB believed this
represented a significant effort to compile meaningful baseline data. Yet, OMB
stated that more work is needed to overcome several deficiencies that include:

•   workforce planning is not integrated into budget and strategic plans;
•   de-layering of organizational levels is not completed; and
•   staff is not aligned to support missions, goals and organizational objectives
    in a systematic way.




                                                                               22
According to OMB, these deficiencies should be corrected to address elements
of the President’s Management Agenda which emphasize that workforce
planning and restructuring undertaken as part of the “Strategic Management of
Human Capital” will be defined in terms of each agency’s mission, goals, and
objectives—a key element of “Budget and Performance Integration.” In the
case of USAID, its current workforce data is not linked to its strategic
objectives.

OMB asked USAID to finalize a five-year, workforce restructuring plan by
February 2002 and develop performance indicators to evaluate recruitment and
efforts to rationalize staff allocations. At the time of our audit, USAID had not
provided this information to OMB because the reorganization of USAID was
not yet complete. Further, USAID has not yet developed a timeline that breaks
down the major tasks required to meet OMB’s requirements.

The Foreign Service recruiting plan used by M/HR to identify and address out-
year needs is a “best practice” activity that merits expanded use for USAID’s
civil service and non-direct hire workforce. Although such an undertaking
may be difficult, the size and important roles provided by these segments of the
workforce call for similar attention. Similar plans, if developed for USAID’s
civil service and non-direct hire workforce, will help improve USAID’s ability
to overcome its future human capital challenges. In addition, this effort will
provide more complete workforce analysis as required by OMB.

       Recommendation No. 7: We recommend that the Director of the
       Office of Human Resources develop workforce plans for USAID’s
       civil service and non-direct hire workforce.




                                                                              23
Management   In response to our draft report, USAID management concurred with the first
Comments     six of seven recommendations that are included in this report and provided a
             plan for addressing them. Accordingly, we consider management decisions
and our
             to have been reached on those six recommendations. For these six
Evaluation   recommendations, USAID’s management stated that it has taken steps or is
             planning to take steps to carry out the necessary action to implement these
             recommendations. We ask that M/HR coordinate final action with USAID’s
             Office of Management Planning and Innovation in closing all
             recommendations. USAID’s management comments are included in
             Appendix II.

             An important step that USAID management is taking to help improve the
             accuracy of its workforce data is the implementation of e-World, a staffing
             report database. This database is scheduled for implementation in December
             2002. USAID management believes that the implementation of e-World will
             address recommendations 1, 2, 3 and 5. We concur, if properly implemented
             and administered, e-World will provide the opportunity for USAID to address
             many of the data weaknesses identified in the report. In order to properly
             implement e-World and avoid past data problems, M/HR will need to provide
             the necessary procedures, guidance, definitions, and requirements that are
             included in recommendations 1, 2, 3, and 5. In addition to its management
             comments, M/HR provided a copy of a draft summary of USAID’s FY 2003
             Human Capital Plan. However, the draft summary of the plan lacked
             specificity on how M/HR will address recommendations 1, 2, 3, and 5.

             M/HR agreed with recommendation No. 4, which in part deals with
             providing training to all staff members who are responsible for entering (and
             correcting) personnel data in the National Finance Center database. However
             the draft summary of the human capital plan, provided with the management
             comments, does not specifically address this recommendation.

             M/HR agreed with recommendation No. 6, which addresses instituting a
             process to collect data on the reasons for employee attrition. It stated that
             implementation of this recommendation will be conducted in two stages.
             The first will put in place exit interviews for two critical occupations by the
             end of calendar year 2002. The second stage will expand the exit interviews
             to all occupations by the end of FY 2003.

             Recommendation No. 7 is the only recommendation without a management
             decision. This recommendation addresses the need for developing workforce
             plans for USAID’s civil service and non-direct hire workforce. Management’s
             comments agreed with the portion of the recommendation that relates to
             developing a civil service workforce plan and stated that it planned to
             implement this activity by the end of fiscal year 2003. However, the portion of

                                                                                          24
the recommendation that addresses the need for the Director of the Office of
Human Resources to develop a workforce plan for the non-direct hire
workforce has not been agreed to by USAID’s management. M/HR stated that
it is M/HR’s role to set the policy and issue guidelines on appropriate workforce
employment mechanisms and the appropriate uses of U.S. direct hire and non-
U.S. direct hire staff only. Further, M/HR stated that plans for the non-U.S.
direct hire workforce are the responsibility of each mission. We believe that
M/HR’s decision to set policy and issue guidelines on appropriate workforce
employment mechanisms and the appropriate uses of U.S. direct hire and non-
US direct hire staff is commendable and needed. However, the size,
importance, and wide dispersion of the contracted portion of USAID’s
workforce dictates a more centralized and directed management strategy. We
continue to believe that the Director of the Office of Human Resources needs to
develop a workforce plan for the non-direct hire workforce, similar to the
Foreign Service plan and the planned civil service plan. A decentralized and
delegated approach will not ensure that USAID will be in a position to
overcome its human capital challenges and prepare the more complete
workforce analysis required by OMB. As a result, we believe that a
management decision has not been reached for recommendation No. 7.




                                                                              25
              Appendix I


Scope and     Scope
Methodology
              The Performance Audits Division of the Office of Inspector General
              conducted this audit in accordance with generally accepted government
              auditing standards. This audit was designed to answer the following
              questions. What human capital data are being collected by USAID? Are the
              human capital data complete and accurate? When analyzed, what do the
              human capital data indicate? The scope of this audit included human capital
              data collected by USAID’s Bureau for Management, Office of Human
              Resources (M/HR) for fiscal years 1995 through 2001, excluding data from
              the Office of Inspector General. Where appropriate, we tested
              management/internal controls in relation to the collecting and reporting of
              human capital data. There were no previous audit reports on this subject
              matter, thus there were no previous audit findings for us to review.

              Our audit included personnel data submitted by USAID’s missions and field
              offices to M/HR as well as data collected and reported by M/HR through the
              National Finance Center (NFC). In addition, we interviewed officials from
              USAID, as well as other agencies who receive human capital data such as the
              NFC, Office of Management and Budget, and Office of Personnel
              Management. Our fieldwork was conducted at USAID in Washington, D.C.,
              from June 2001 through March 2002.

              Methodology

              In order to answer the first objective to determine what human capital data
              are being collected by USAID, we reviewed USAID’s year-end Worldwide
              Staffing Pattern Reports for fiscal years 1995 through 2001. We also
              reviewed USAID’s Workforce Analysis, which was issued in June 2001.
              Further, we reviewed USAID’s requirements for its Mission Staffing Pattern
              System, the Office of Personnel Data Reporting requirements, and the
              National Finance Center’s procedures.

              In order to answer the second objective to determine if the human capital data
              was complete and accurate, we designed workforce data testing plans to
              validate workforce data for direct and non-direct hires. We reviewed reports
              prepared by M/HR and looked for incomplete and inaccurate data. Further, we
              randomly sampled data reported at the end of fiscal year 2001 for US-direct
              hires and non-direct hires and tested it against source documents. The direct-
              hire data was provided by M/HR and extracted from NFC’s database. The non-
              direct-hire data was obtained from M/HR and extracted from the Mission
              Staffing Pattern System. We did not test the USAID/Washington non-direct


                                                                                         26
workforce data because it was reported in summary form, whereas the audit
testing focused on testing data elements of specific individuals.

In selecting direct hire data elements to test, we worked in conjunction with
M/HR to identify human capital data elements that were important. These
elements included: employee name, date of birth, organization, duty station, pay
plan, grade, position number, service computation date, Foreign Service entry
date (if applicable), and appointment type. We requested that the Office of
Human Resources provide a list of all direct hires (excluding consultants and
Office of Inspector General personnel) as of September 30, 2001 with the
applicable data elements identified above. The Office of Human Resources
was unable to obtain this data run on September 30, 2001, and instead obtained
the data run on October 1, 2001, which showed 1,946 direct hires. We
randomly sampled 174 direct hires. This sample size provided a 95 percent
confidence level, with a precision of 2 percent for a 2 percent error rate. We
selected 2 percent as the materiality threshold, meaning that errors that
exceeded this percentage were deemed to be significant. For our testing, we
compared the data elements provided by M/HR against the Standard Form 50s
located in the official personnel files.

We also compared the total number of direct hires from which we pulled our
sample against the total number of direct hires listed on a payroll report for pay
period 19 (which ended October 6, 2001). After comparing the two reports, we
identified some differences between the two reports. We met with officials
from the Offices of Payroll and M/HR to resolve the differences. USAID was
able to rectify the differences.

In order to assess the completeness and accuracy of the non-direct hires data
provided by the missions and field offices, we tested data elements such as
name, personal services contractor start date, pay grade, and organization. The
sampling methodology for testing the non-direct-hire data was a two-step
process. First, we developed a random sample of missions and field offices
stratified by workforce sizes as reported for the fourth quarter of 2001.
Workforces were stratified into four groups for workforces of less than 50, 50
to 99, 100 to 250, and 251 or over. We excluded missions that had reported
summary workforce data to M/HR because our objective was to test data
elements for specific individuals. Secondly, from the four groups we developed
a stratified sample of 30 missions and field offices of which we selected a
random sample of 196 non-direct hires. We requested each of the missions and
field offices in our sample to provide documents to test against data that had
been previously reported to M/HR on individuals in the random sample.

In order to answer the third objective to determine what the human capital data
indicates, we reviewed USAID’s trend data as well as various workforce
reports for USAID from fiscal year 1995 through fiscal year 2001. In addition,


                                                                                27
we supplemented this information with interviews of M/HR staff who were
involved in analyzing this data.




                                                                          28
                                                                    Appendix II


Management
Comments


                          United States Agency for International Development



          The Office of
        Human Resources                                     Nov 13 2002

        MEMORANDUM

        TO:         IG/A/PA, Dianne L. Rawl

        FROM:       M/HR/OD, Rose Marie Depp /s/

        SUBJECT: Our Comments on Draft Report Audit of USAID’s
        Human Capital Data Recommendations

            Let me begin by thanking your staff, in particular
        Mr. James Charlifue, for the professional, collaborative
        manner in which they carried out this audit.

            The Office of Human Resources agrees fully with all
        but one of the recommendations in the draft audit. We
        have taken or are planning to take steps to carry out
        the first six recommendations. The attached “Working
        Draft USAID Human Capital Strategic Plan” provides
        details on how we are or will address the audit
        recommendations and much more. For example, e-World
        (implementation scheduled for December 2002) will yield
        more accurate workforce data (recommendations 1 through
        3, and recommendation 5). We will have an exit
        interview protocol in place for two critical occupations
        by the end of this year and expand it to all occupations
        by end of FY 2003 (recommendation 6).

            The last recommendation, number 7, is the only one on
        which our offices differ to some degree. It reads: “We
        recommend that the Director of Human Resources develop
        workforce plans for USAID’s civil service and non-direct


                                                                            29
hire workforce.” By the end of Fiscal Year 2003, we
will develop the first annual Civil Service recruitment
(workforce plan). But, as for plans for the non-USDH,
each Mission must decide how to organize to accomplish
its particular mission. I see this Office’s role as
setting the policy and issuing the guidelines on
appropriate workforce employment mechanisms and the
appropriate uses of USDH and non-USDH staff.

Attachment: a/s




                                                          30
